1a
APPENDIX A

IN THE

Indiana Supreme Court
Supreme Court Case No. 21S-PL-77

City of Bloomington Board of Zoning Appeals,
Appellant (Defendant below),
–v–

UJ-Eighty Corporation,
Appellee (Plaintiff below).
Argued: September 24, 2020 |
Decided: February 23, 2021
Appeal from the Monroe Circuit Court,
No. 53C06-1806-PL-1240
The Honorable Frank M. Nardi, Special Judge

2a
On Petition to Transfer from the Indiana Court of
Appeals,
No. 19A-PL-457

Opinion by Justice Massa
Chief Justice Rush and Justices David, Slaughter, and
Goff concur.
Massa, Justice.
UJ-Eighty Corporation owns a fraternity house at
Indiana University (IU) in Bloomington. The house sits
within a district zoned by the City of Bloomington to permit limited residential uses. At the relevant time, fraternities and sororities in the district were required to be
sanctioned or recognized by IU. UJ-Eighty leased its
house to an IU-sanctioned fraternity. Before the lease
ended, IU revoked its recognition and approval of the fraternity, meaning no one could reside there. But two residents remained, so Bloomington cited UJ-Eighty for a
zoning violation. The City of Bloomington Board of Zoning Appeals (BZA) affirmed.
UJ-Eighty sought judicial review under both the
state and federal constitutions, arguing Bloomington impermissibly delegated its zoning authority to IU by allowing it to unilaterally define fraternities and sororities. The
trial court granted relief, and an appellate panel affirmed.
However, we conclude Bloomington did not delegate any
authority to IU; it merely defined fraternities and sororities in zoning law based on their relationship with IU.
While this may have had a “collateral effect” on land use,

3a
it was not a delegation. Thus, there were no constitutional
violations. We reverse.
Facts and Procedural History
In 2002, UJ-Eighty purchased real property located
at 1640 North Jordan Avenue in Bloomington. The property—which has been used as a fraternity or sorority
house since its construction in 1984—was in Bloomington’s “Institutional” zoning district, which allowed
twenty-six permitted uses and nine conditional uses.
Bloomington, Ind. Mun. Code §§ 20.02.500–10 (2017).
There were only five non-conditional residential permitted uses, including “[f]raternity house/sorority house.” Id.
§ .02.500. The others were three different types of group
care homes and “[u]niversity or college.” Id.
When UJ-Eighty purchased the property, the governing Ordinance—which defines various zoning terms—
defined “[f]raternity or [s]orority” as a “building or portion thereof . . . for groups of unmarried students in attendance at an educational institution,” with “occupancy
. . . limited to members of a specific fraternity or sorority.”
Bloomington, Ind. Mun. Code § 20.02.01.00 (1995). In
2015, Bloomington amended the Ordinance’s definition to
mandate, in relevant part, that “all students living in the
building are enrolled at the [IU] Bloomington campus;
and [IU] has sanctioned or recognized the students living
in the building as being members of a fraternity or sorority through whatever procedures [IU] uses to render such
a sanction or recognition.” Bloomington, Ind., Ordinance
15-26 (Dec. 16, 2015) (later codified as part of Bloomington, Ind. Mun. Code § 20.11.020). In other words, the Ordinance at the time UJ-Eighty bought the property limited its use to Greek houses and their members; the 2015
amendment further recognized IU’s power to define what
constitutes a Greek house in good standing.

4a
In August 2016, UJ-Eighty leased the property,
which it had continued to use as a fraternity or sorority
house, to the Gamma-Kappa chapter of Tau Kappa Epsilon, Inc. (TKE), a fraternity recognized by IU. The lease
ran through May 2019. In February 2018, however, IU revoked its recognition of TKE, shutting down the fraternity on campus. While most of the brothers vacated the
property, two remained. Bloomington soon learned of the
remaining residents and, on February 22, mailed a Notice
of Violation to UJ-Eighty. It mailed a second Notice on
February 28. The Notices asserted that because the property no longer met the Ordinance’s definition of a fraternity house, UJ-Eighty engaged in “an illegal land use” by
continuing to use the property as a residence. Appellant’s
App. Vol. II, pp. 15–17. While both Notices informed UJEighty it could be fined, no fine has been imposed.
UJ-Eighty unsuccessfully appealed to the BZA. It
then sought judicial review in the Monroe Circuit Court,
arguing Bloomington committed a regulatory taking1 and
unlawfully delegated zoning authority in violation of Article 4, Section 1 of the Indiana Constitution, the Indiana
Code,2 and the Fourteenth Amendment to the United
States Constitution. The court struck down the Ordinance’s definition of fraternities and sororities under the
state and federal constitutions. The BZA appealed.3
The trial court declined to reach the regulatory taking claim. Because UJ-Eighty did not raise this on appeal, we do not address it.
See Ind. Appellate Rule 46(A)(8)(a) (“The argument must contain the
contentions of the appellant on the issues presented, supported by cogent reasoning.”).
2
Because UJ-Eighty’s Indiana Code argument stems from its Indiana Constitution argument, we address only its constitutional argument.
3
While the appeal was pending, Bloomington amended the Ordinance’s definition. Bloomington, Ind., Ordinance 19-24 (Dec. 18,
2019). This amendment addressed UJ-Eighty’s concerns by removing
1

5a
A divided Court of Appeals affirmed. The majority
found Bloomington “delegated its legislative authority to
[IU] to determine whether the [p]roperty was being used
by students in a sanctioned fraternity” with “no mechanism for reviewing [IU]’s decision.” City of Bloomington
Bd. of Zoning Appeals v. UJ-Eighty Corp., 141 N.E.3d
869, 876 (Ind. Ct. App. 2020), vacated. The Ordinance’s
definition was “clearly arbitrary and unreasonable” because it “created a situation where [IU] was allowed to act,
but UJ-Eighty would be punished” without taking any
“affirmative action to violate the Ordinance.” Id. at 877.
Finding the United States Constitution dispositive, it declined to reach the Indiana Constitution. Id. at 871 n.1.
Dissenting, Judge Bailey found “there was no delegation”
because the Ordinance was “a discernable definition for a
fraternity house,” and Bloomington “decide[d] whether
use of the property complie[d] with the Ordinance,” not
IU. Id. at 879 (Bailey, J., dissenting).
The BZA sought transfer, which we now grant.
Standard of Review
A court will only grant relief from a zoning decision if
the decision prejudiced the challenging party and, relevant here, was “contrary to constitutional right, power,
privilege, or immunity.” Ind. Code § 36-7-4-1614(d)(2)

any reference to IU’s sanction or recognition. However, the amendment was not retroactive, so while it provided prospective relief, it did
not nullify UJ-Eighty’s violation. Absent judicial relief, the BZA’s decision stands, and Bloomington can fine or otherwise penalize UJEighty. Because the controversy at issue has not been ended or settled, this case is not moot. See T.W. v. St. Vincent Hosp. and Health
Care Ctr., Inc., 121 N.E.3d 1039, 1042 (Ind. 2019) (per curiam). Today’s holding also makes clear to zoning authorities in Indiana’s other
college towns that they can rely on a local college or university’s judgment in defining Greek houses.

6a
(2017). The challenger has the burden of demonstrating
the decision’s invalidity. I.C. § 36-7-4-1614(a).
The “[i]nterpretation of a zoning ordinance is a question of law,” Story Bed & Breakfast, LLP v. Brown Cnty.
Area Plan Comm’n, 819 N.E.2d 55, 65 (Ind. 2004), so we
review de novo, Paul Stieler Enters., Inc. v. City of Evansville, 2 N.E.3d 1269, 1272 (Ind. 2014). But because zoning ordinances are presumed constitutional, “all doubts
are resolved against” the challenger. Dvorak v. City of
Bloomington, 796 N.E.2d 236, 237–38 (Ind. 2003).
Discussion and Decision
UJ-Eighty’s arguments under the state and federal
constitutions hinge on the same allegation: Bloomington
improperly delegated the unilateral authority to define
“fraternity” and “sorority” to IU. Our review of the Ordinance reveals Bloomington never empowered IU to define fraternities and sororities, a power IU already clearly
possesses. Bloomington, rather—through the legislative
process—defined fraternities and sororities based on
their relationship with IU. It did not delegate any authority, legislative or otherwise. Because there was no improper delegation or other denial of due process, there
were no constitutional violations.
I. Bloomington did not violate the Indiana Constitution because it did not improperly delegate legislative
authority to IU.
UJ-Eighty argues Bloomington violated Article 4,
Section 1 of the Indiana Constitution. That section provides, in relevant part: “The Legislative authority of the
State shall be vested in a General Assembly, which shall
consist of a Senate and a House of Representatives.” Ind.
Const. art. 4, § 1.
For the Ordinance to have violated Article 4, Section
1, there must have been some “unlawful delegation of

7a
power.” Welsh v. Sells, 244 Ind. 423, 436, 192 N.E.2d 753,
760 (1963). “Constitutionally, no one can modify or change
the law except the legislature.” Id. Only Bloomington
through its legislative body—acting pursuant to powers
granted by the General Assembly—can make or amend
its zoning laws. Here, “[t]he establishment of . . . zones
and the permitted and prohibited uses in those districts
. . . is the pertinent ‘legislative’ action.” Schweizer v. Bd.
of Adjustment of Newark, 980 A.2d 379, 385 (Del. 2009).
Bloomington—not IU—undertook that action when it
wrote and enacted the Ordinance. Nothing in the record
supports a conclusion that IU made the zoning law in
Bloomington.
The Ordinance’s definition of “fraternity” and “sorority” was no different than many of its other definitions
that referenced an outside entity. See, e.g., Bloomington,
Ind. Mun. Code § 20.11.020 (2017) (requiring a “‘group
care home for mentally ill’ . . . be a licensed facility with
the state”). Bloomington did not delegate legislative authority to any of these entities. It merely defined certain
land uses based on their relationships with relevant outside organizations. While the Ordinance’s “through whatever procedures” language for fraternities and sororities
was broad, it did not turn a definition into a delegation.
See Antonin Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts 247 (2012) (“A statute
should be interpreted in a way that avoids placing its constitutionality in doubt.”). The Ordinance did not obligate
IU to act or directly empower it to write zoning law. Rather, it helped define fraternities and sororities by ensuring their relationship with IU was the deciding factor, not
the process that created the relationship. That was a permissible legislative judgment, not an impermissible delegation.

8a
II. Bloomington did not violate the United States
Constitution because it did not improperly delegate
authority to IU or otherwise deprive UJ-Eighty of due
process.
Similarly, UJ-Eighty argues Bloomington violated its
due process rights under the Fourteenth Amendment to
the United States Constitution by delegating to IU the authority to unilaterally define fraternities and sororities
without any standards or oversight. The Fourteenth
Amendment provides, in relevant part: “[N]or shall any
State deprive any person of life, liberty, or property, without due process of law.” U.S. Const. amend. XIV, § 1. It
“guarantee[s] procedural and substantive due process.”
McIntosh v. Melroe Co., 729 N.E.2d 972, 975 (Ind. 2000).
Procedural due process protects against the “denial of
fundamental procedural fairness.” County of Sacramento
v. Lewis, 523 U.S. 833, 845–46 (1998). Substantive due process protects against arbitrary and oppressive government action. Id. Here, for Bloomington to have violated
either under UJ-Eighty’s theory, some improper delegation to IU or procedural irregularity was necessary. Because we find none, we find no violation.
In making its due process arguments, UJ-Eighty relies heavily on Washington ex rel. Seattle Title Trust Co.
v. Roberge, 278 U.S. 116 (1928), and Counceller v. City of
Columbus Plan Commission, 42 N.E.3d 146 (Ind. Ct.
App. 2015), trans. denied. In Roberge, a Seattle zoning ordinance required a landowner to obtain the written consent of two-thirds of neighboring landowners within 400
feet of a proposed new home for the elderly. 278 U.S. at
118. The landowner did not, so Seattle denied his building
permit. Id. at 119. The United States Supreme Court ultimately found the ordinance was an impermissible delegation of power under the Fourteenth Amendment because
it gave neighboring landowners final authority “uncontrolled by any standard or rule prescribed by legislative

9a
action” without any “provision for review.” Id. at 122–23.
The neighboring landowners were “not bound by any official duty[] but [were] free to withhold consent for selfish
reasons or arbitrarily and [could] subject the [landowner]
to their will or caprice.” Id. at 122.
In Counceller, a Columbus ordinance required a landowner to obtain “the signed consent of 75% of the owners
of property in the existing subdivision” to further subdivide land. 42 N.E.3d at 147–48 (quotation marks and citation omitted). However, it also allowed the governing plan
commission to waive the consent requirement. Id. at 148.
The commission rejected the landowner’s application to
subdivide his lot because he lacked the necessary consent.
Id. He sought judicial review, arguing “the [c]ommission
improperly abdicated its authority” to his neighbors in violation of the Fourteenth Amendment as interpreted by
Roberge. Id. at 148, 150–51. Our Court of Appeals distinguished Roberge because the waiver provision allowed the
landowner to take “the neighbors completely out of the
equation.” Id. at 151. Thus, there was no impermissible
delegation. Id.
Neither case is on point. In both Roberge and Counceller (absent a waiver), the landowners were required to
obtain their neighbors’ consent to use their land. Here,
UJ-Eighty never had to seek IU’s consent to use its land.
IU had no direct power to prohibit UJ-Eighty from lawfully using its land.
As discussed above in Section I, Bloomington never
delegated any authority to IU. IU had no power to make
or amend zoning law, and its power to regulate and discipline students and student organizations—including fraternities—comes from the General Assembly, not Bloomington. See I.C. §§ 21-39-2-3–4 (allowing IU to govern student conduct and discipline students for violating applicable rules and standards). IU’s decision to recognize or

10a
sanction a fraternity may have had “collateral effects” on
land use in Bloomington, but that did “not transform [its]
quasi-judicial decision [to revoke its recognition of TKE]
into an exercise of [Bloomington]’s legislative function.”
Schweizer, 980 A.2d at 385 (emphasis added).
It was not IU that decided whether UJ-Eighty or any
other landowner violated Bloomington’s zoning laws.
Bloomington, through the BZA, ultimately decided. The
members of the BZA were free to exercise their authority
as they wished, subject to lawful constraints. If UJEighty is unhappy with Bloomington’s zoning laws or the
BZA, it can seek change through the political process.
There is another important distinction between this
case and Roberge and Counceller. There, private landowners influenced land use. But here, when IU regulates students and student organizations—including fraternities—it is a state actor and must abide by the state and
federal constitutions. See Doe v. Univ. of Cincinnati, 872
F.3d 393, 399 (6th Cir. 2017); Medlock v. Trs. of Ind.
Univ., 738 F.3d 867, 871 (7th Cir. 2013); Trs. of Ind. Univ.
v. Curry, 918 F.3d 537, 554 (7th Cir. 2019) (Hamilton, J.,
dissenting). IU was constrained when it engaged in the
relevant “quasi-judicial act” with a collateral effect on
land use. Schweizer, 980 A.2d at 385. And despite hinting
otherwise,4 UJ-Eighty has not shown IU acted

When asked by a member of the BZA whether “there is an ulterior
motive to move [fraternity members] out so that they would then be
forced to go [live] on campus,” UJ-Eighty’s counsel asserted that “we
can’t assign motive certainly but it looks odd. I will leave it at that.”
Appellant’s App. Vol. II, p.69. Counsel then acknowledged he did not
“know for a fact” that IU had an ulterior motive. Id. And on appeal,
UJ-Eighty asserted that under the Ordinance, “[IU] may withhold its
sanction or recognition of a particular fraternity or sorority for selfish
reasons or arbitrarily and may subject a property owner to its own,
self-interested caprice. The concern about arbitrary decision-making

4

11a
improperly or disregarded either constitution when it revoked TKE’s sanction.
The Delaware Supreme Court has decided a case
much more on point than Roberge and Counceller. In
Schweizer v. Board of Adjustment of Newark, the University of Delaware suspended a fraternity for four years,
triggering this section of the Newark Zoning Code:
A fraternity or sorority, however, that is
suspended by the University of Delaware
so that it is no longer approved and/or
sanctioned to operate as a fraternity or sorority for a period of more than one year
shall vacate the building and the use as a
fraternity or sorority shall be terminated
immediately upon such University suspension.
980 A.2d at 383–84 (quoting Newark, Del. Mun. Code § 3251(b) (2005)). The fraternity house owners challenged the
Zoning Code, arguing, among other things, that Newark
impermissibly delegated legislative authority and violated
their Fourteenth Amendment due process rights. Id. at
382. The Delaware Supreme Court found Newark did neither. Id. Addressing the Fourteenth Amendment claim,
the court concluded the owners “failed to make a record
which would support a conclusion that they were precluded from participating in the [u]niversity’s proceedings.” Id. at 386. They also “conceded before the [b]oard
that the [u]niversity had the lawful authority to discipline
fraternities, and that [the b]oard had no right or obligation to retry the [u]niversity disciplinary proceeding
against [the fraternity].” Id. Because they “failed to alert
the [b]oard to any procedural irregularity in the
is substantial . . . particularly given that the [Ordinance’s] [d]efinition
overtly invites [IU] to act arbitrarily.” Appellee’s Br. at 25–26.

12a
[u]niversity proceeding, and none [was] apparent on the
record,” the owners were not denied due process. Id.
We agree with Schweizer. Just like the landowners
there, UJ-Eighty has failed to show it was deprived of due
process aside from the alleged delegation. It never establishes it was prohibited from supporting TKE during IU’s
proceedings. As TKE’s landlord, it would have been reasonable to remain aware of any potential problems and
support its tenant as necessary. UJ-Eighty also never alleged that IU lacked authority to discipline TKE. And UJEighty failed to identify any procedural irregularities
with IU’s process for revoking TKE’s sanction, including
any constitutional or statutory violations. As in Schweizer,
UJ-Eighty has not established that any action by IU,
Bloomington, or the BZA violated the Fourteenth
Amendment.
The Ordinance did nothing more than define fraternities and sororities based on their relationship with IU.
It was not a delegation of power; rather, it was a legislative decision on how to define a certain land use. And UJEighty failed to establish how, outside the alleged delegation, it was denied due process. Thus, Bloomington did not
violate the Fourteenth Amendment.
Conclusion
The impermissible delegation of power and denial of
due process strike at the core of our state and federal constitutions. Courts should guard against such significant
constitutional violations. However, for there to be a violation, there must be some delegation or lack of due process.
Here, there was none. The judgment of the trial court is
reversed.
Rush, C.J., and David, Slaughter, and Goff, JJ., concur.

13a

ATTORNEYS FOR APPELLANT
Michael M. Rouker
Larry D. Allen
City of Bloomington Legal Department
Bloomington, Indiana
ATTORNEYS FOR APPELLEE
Kendra G. Gjerdingen
Garry L. Founds
D. Michael Allen
Mallor Grodner LLP
Bloomington, Indiana
ATTORNEYS FOR AMICUS CURIAE TRUSTEES
OF INDIANA UNIVERSITY
James L. Whitlatch
Kathryn E. DeWeese
Bunger & Robertson
Bloomington, Indiana

14a
APPENDIX B

ATTORNEYS FOR
APPELLANT

ATTORNEYS FOR
APPELLEE

Michael Rouker
Larry D. Allen
Bloomington, Indiana

Kendra G. Gjerdingen
Garry L. Founds
D. Michael Allen
Daniel A. Dixon
Mallor Grodner LLP
Bloomington, Indiana

ATTORNEYS FOR AMICUS
CURIAE

James L. Whitlatch
Kathryn DeWeese
Bunger & Robertson
Bloomington, Indiana
IN THE
COURT OF APPEALS OF INDIANA
City of Bloomington
Board of Zoning Appeals,
Appellant,
v.
UJ-Eighty Corporation,
Appellee.

January 30, 2020
Court of Appeals Case
No. 19A-PL-457
Appeal from the Monroe
Circuit Court
The Honorable Frank M.
Nardi, Special Judge
Trial Court Cause No.
53C06-1806-PL-1240

15a
Pyle, Judge.
Statement of the Case
[1]

This appeal involves a city ordinance that was found
unconstitutional as an unlawful delegation of governmental authority. Bloomington (“the City”) enacted a Unified Development Ordinance (“the Ordinance”) that contained the definition of a fraternity
or sorority house and required students to be enrolled in Indiana University and sanctioned by the
university, through whatever process the university
chose, as members of a fraternity or sorority.

[2]

In August 2016, UJ-Eighty Corporation (“UJEighty”), the owner of real estate (“the Property”)
located in the City, entered into a lease with the
Gamma-Kappa Chapter of Tau Kappa Epsilon
(“TKE”). At the time, TKE was a sanctioned fraternity with Indiana University. In February 2018,
the members of TKE were notified that they could
no longer reside at the Property because the university no longer sanctioned TKE. Most of the residents moved out, but two individuals continued to
reside at the Property.

[3]

Following the loss of TKE’s status as a sanctioned
fraternity, the City determined that the Property
no longer met the Ordinance definition of a “Fraternity/Sorority House” and issued two notices of
violation (“NOV”) to UJ-Eighty. UJ-Eighty appealed the issuance of the NOVs before the Bloomington Board of Zoning Appeals (“BZA”). The BZA
affirmed the issuance of the NOVs. UJ-Eighty
then sought judicial review of the BZA’s decision.
The trial court granted UJ-Eighty’s petition, finding that the City had improperly delegated authority to Indiana University to determine whether the

16a
Property was being used by students in a sanctioned fraternity and that the Ordinance was unconstitutional under the Due Process Clause of the
Fourteenth Amendment of the United States Constitution and Article 4, § 1 of the Indiana Constitution.
[4]

On appeal, the BZA argues that the trial court
erred by finding that the City, through the Ordinance, delegated zoning authority to Indiana University in contravention of federal and state constitutions. Concluding that the City improperly delegated authority to Indiana University in violation of
the Due Process Clause of the Fourteenth Amendment, we affirm the trial court.1

[5]

We affirm.
Issue
Whether the City, through the Ordinance, improperly delegated governmental authority in violation of
the Due Process Clause of the Fourteenth Amendment of the United States Constitution.
Facts2

[6]

In 2002, UJ-Eighty purchased real estate in Bloomington, Indiana. The Property consists of a house
that is in an Institutional zoning district. The City
permits twenty-six uses within Institutional zoning

Because we hold that the United States Constitution issue is dispositive, we need not address whether the Ordinance violated the Indiana
Constitution.
2
We held oral argument in this cause on October 8, 2019, in the Court
of Appeals courtroom in Indianapolis, Indiana. We thank counsel for
their excellent oral advocacy in this matter.
1

17a
districts, of which the following are residential uses:
(1) Fraternity/Sorority House; (2) Group Care
Home for Developmentally Disabled; (3) Group
Care Home for Mentally Ill; (4) Group/Residential
Care Home; and (5) University or College. Bloomington Mun. Code § 20.02.500. Residential occupancy outside of the five uses is not permitted in an
Institutional zoning district. At the time UJ-Eighty
purchased the Property, a “Fraternity/Sorority
House” was defined as follows:
A building or portion thereof used for
sleeping accommodations, with or without accessory common rooms and cooking and eating facilities, for groups of
unmarried students in attendance at an
educational institution. Shall also include any building or portion thereof in
which individual rooms or apartments
are leased to individuals, but occupancy
is limited to members of a specific fraternity or sorority, regardless of the
ownership of the building or the means
by which occupancy is so limited.
Bloomington Mun. Code § 20.02 (as adopted and effective May 1, 1995).
[7]

Thereafter, in 2015, the Bloomington City Council
amended the definition of “Fraternity/Sorority
House” contained in the Ordinance at issue in this
appeal to mean the following:
A building or portion thereof used for
sleeping accommodations, with or without accessory common rooms and cooking and eating facilities, for groups of
unmarried students who meet the

18a
following requirements: all students
living in the building are enrolled at
Indiana University, Bloomington
Campus; and Indiana University has
sanctioned or recognized the students
living in the building as being members of a fraternity or sorority through
whatever procedures Indiana University uses to render such a sanction or
recognition. Shall also include a building or portion thereof in which individual rooms or apartments are leased to
individuals, but occupancy is limited to
members of a specific fraternity or sorority, regardless of the ownership of
the building or the means by which occupancy is so limited, provided the two
requirements noted in the first sentence of this definition are also met.
Bloomington Mun. Code § 20.11.020. (emphases
added).
[8]

3

In August 2016, UJ-Eighty leased the Property to
TKE for a term from August 2016 through May
2019.3 In February 2018, the members of TKE
were notified that they could no longer reside at the
Property because Indiana University no longer recognized or sanctioned the local TKE chapter. With
the assistance of Indiana University, most of the
residents moved out and secured other housing.
However, two individuals continued to reside at the
Property.

The lease agreement was not included in the appendix.

19a
[9]

Thereafter, the City received information that the
two individuals had not vacated the Property. The
City mailed a NOV of the Ordinance to UJ-Eighty
on February 22, 2018. This NOV alleged that the
Property was being used by two individuals as a
dwelling in an “Institutional zoning district which
does not permit dwelling of any type, as per the
Bloomington Municipal Code’s Unified Development Ordinance (UDO) Section 20.02.500 Institutional Permitted Uses. As of February 18, 2018,
[the Property] no longer meets the [Ordinance] definition of a ‘fraternity,’ a permitted use in Institutional zoning districts.” (App. 15).

[10] Shortly thereafter, on February 28, 2018, the City
mailed a second NOV to UJ-Eighty. The NOV
made the same basic allegation of non-compliance
of the Ordinance as stated in the first NOV. It also
included the Ordinance definition of “Fraternity/Sorority House” and stated that two individuals had failed to vacate the Property, resulting in an
“illegal land use.” (App. 16).
[11] Both NOVs warned that a violation of this nature
could result in a two thousand five hundred dollar
($2,500) fine. Further, the NOVs warned that each
day a violation was allowed to continue would be
considered a separate violation and that subsequent
violations were twice the previous fine, up to a maximum daily fine of seven thousand five hundred dollars ($7,500). However, no fines were ever imposed.
[12] UJ-Eighty requested an administrative appeal of
the City’s issuance of the NOVs. The BZA held a
hearing in May 2018. At the hearing, UJ-Eighty
argued that the Ordinance allowed an unconstitutional delegation of power to Indiana University in
violation of the 14th Amendment to the U.S.

20a
Constitution and Article 4, § 1 of the Indiana Constitution. When arguing against the unconstitutionality of the Ordinance, the City confirmed that its
application and enforcement of the Ordinance was
contingent upon Indiana University’s determination. The City argued that the Ordinance meant
that “once Indiana University no longer sanctioned
or recognized the fraternity occupying the petitioner’s location, the use ‘fraternity/sorority house’
could no longer be applied to use by those occupants.” (App. 38). The City further asserted that “it
is reasonable to define the term according to
whether the university acknowledges that the occupants are a sanctioned fraternity/sorority.” (App.
38). On June 13, 2018, the BZA affirmed the issuance of the NOVs and denied UJ-Eighty’s appeal.
UJ-Eighty then petitioned for judicial review of the
BZA decision, raising the same constitutional arguments. The trial court granted the petition and entered its order in February 2019. It found that the
City had unlawfully delegated governmental authority to Indiana University in violation of the Indiana Constitution and the U.S. Constitution. Specifically, the trial court found that the City’s actions
were:
contrary to law and violate[d] the Constitution of Indiana. As argued by [UJEighty], Article 4[,] Section 1 of the Indiana Constitution delegates the legislative authority to the General Assembly and the General Assembly has delegated planning and zoning powers to
municipalities and their respective plan
commissions and boards of zoning appeals. The [City] has improperly delegated the authority to Indiana

21a
University to unilaterally define what
constitutes a fraternity or sorority under the [City’s] [Ordinance].
The court also finds . . . that the [City’s]
actions also constitute an unlawful delegation of governmental authority in violation of the due process clause of the
Fourteenth Amendment of the United
States Constitution. As argued by [UJEighty], the [City’s] definition allows
Indiana University to unilaterally determine how [UJ-Eighty] may use its
property and both the [City] and [UJEighty] are bound by that determination. The [City’s] Ordinance does not
provide a standard to control the University’s decision, nor does it provide
[UJ-Eighty] with a right to a review of
the University’s decision. Under the
definition, the University can make the
decision to recognize or sanction a fraternity under whatever procedures that
it chooses, without restriction. This
type of delegation of authority has been
found to be unconstitutional as found
by the Supreme Court of the United
States in State of Washington ex rel.
Seattle Trust Co. v. Roberge, 278 U.S.
116 (1928). More recently the Indiana
Court of Appeals in Counceller v. City
of Columbus Plan Comm’n, 42 N.E.3d
146 (Ind. Ct. App. 2015) cited the Roberge case and acknowledged that zoning ordinances which grant unrestricted power to neighbors to withhold

22a
consent for a particular property use
are unconstitutional. The [City’s] definition of fraternities gives Indiana University the unrestricted power to determine [UJ-Eighty’s] use of its property
without providing any mechanism for
reviewing and overruling the University’s decision, and for this reason is unconstitutional and not in accordance
with law.
The Court now grants the Petition for
Judicial Review, strikes down the definition of “Fraternity/Sorority House”
as defined by the Bloomington Unified
Development Ordinance as unlawful,
sets aside the decision of the Board of
Zoning Appeals, and Orders the Board
of Zoning Appeals to dismiss and vacate the Notices of Violation issued
against [UJ-Eighty].
(App. 201-2) (italics added). The BZA now appeals.4
Decision
[13] On appeal, the BZA argues that the City’s Ordinance does not “violate the due process clause of
the Fourteenth Amendment to the United States
Constitution.” (BZA’s Br. 13). Specifically, the
BZA argues that the Ordinance “simply defines
After the parties submitted their appellate briefs, UJ-Eighty moved
to strike portions of the amicus brief filed by Indiana University in
support of the BZA, and Indiana University filed a response thereto.
We grant UJ-Eighty’s motion to strike in an order filed contemporaneously with this opinion.

4

23a
fraternities and sororities as what they are—entities affiliated with universities.” (BZA’s Br. 15).
For its part, UJ-Eighty argues that the City delegates to “Indiana University alone the authority to
determine how UJ-Eighty Corporation may use the
Property without providing a standard by which the
City can control the University’s decision and without providing UJ-Eighty with the right to have the
University’s decision reviewed.” (UJ-Eighty’s Br.
22).
[14] “The ultimate purpose of zoning ordinances is to
confine certain classes of uses and structures to
designated areas.” Ragucci v. Metro. Dev. Comm’n
of Marion Cty., 702 N.E.2d 677, 679 (Ind. 1998).
Zoning is essentially a legislative act. Board of
Comm’rs of Cty. of Vanderburgh v. Three I Properties, 787 N.E.2d 967, 976 (Ind. Ct. App. 2003). However, a county, municipality, or other unit of local
government is not authorized to engage in the zoning process unless our General Assembly has delegated this authority to them. See IND. CODE § 367-4-601 et seq.; I.C. § 36-1-2-23; Green v. Hancock
Cty. Bd. Of Zoning Appeals, 851 N.E.2d 962, 965966 (Ind. Ct. App. 2006). As a result, Indiana statutes give counties, municipalities, and other units of
local government the power to plan for and regulate
the use, development, improvement, location, condition, and maintenance of real property and buildings or structures on it for the purpose of promoting the health, safety, morals, or general welfare of
a community. Evansville Outdoor Advert., Inc. v.
Bd. Of Zoning Appeals of Evansville and Vanderburgh Cty., 757 N.E.2d 151, 160 (Ind. Ct. App.
2001), reh’g denied, trans. denied. Despite this
power, a political subdivision of this state exercising
zoning authority must also do so within applicable

24a
constitutional limitations. Dvorak v. City of Bloomington, 702 N.E.2d 1121, 1124 (Ind. Ct. App. 1998).
[15] “When we review a constitutional challenge to a
municipal ordinance, we consider the ordinance to
stand on the same footing as an act of the legislature.” Id. In fact, the ordinance is presumed to be
constitutional. Id. Upon appellate review, “we accord the ordinance every reasonable presumption
supporting its validity and place the burden upon
the party challenging it to show unconstitutionality.” Id. An ordinance will not be declared unconstitutional merely because this court might consider
it unwise, undesirable, or ineffective; the constitutional defects must be clearly apparent. Id.
[16] In addition, INDIANA CODE § 36-7-4-1614(d), provides that a reviewing court should grant relief only
if the court determines that a person seeking judicial relief has been prejudiced by a zoning decision
that is:
(1) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law;
(2) contrary to constitutional right, power,
privilege, or immunity;
(3) in excess of statutory jurisdiction, authority
or limitations, or short of statutory right;
(4) without observance of procedure required
by law; or
(5) unsupported by substantial evidence.
“The burden of demonstrating the invalidity of a zoning decision is on the party to the judicial review proceeding asserting invalidity.” I.C. § 36-7-4-1614(a).
When we review the BZA’s actions, we apply the
same standard as the trial court. St. Charles Tower,

25a
Inc. v. Bd. of Zoning Appeals of Evansville-Vanderburgh Cty., 873 N.E.2d 598, 600 (Ind. 2007). “A proceeding before a trial court or an appellate court is
not a trial de novo; neither court may substitute its
own judgment for or reweigh the evidentiary findings of an administrative agency.” Id. We may not
reverse the BZA’s decision “unless an error of law is
demonstrated.” Schlehuser v. City of Seymour, 674
N.E.2d 1009, 1013 (Ind. Ct. App. 1996).
[17] However, a review of the interpretation of a zoning
ordinance is a question of law. Story Bed & Breakfast, LLP v. Brown Cty. Area Plan Comm’n, 819
N.E.2d 55, 65 (Ind. 2004). The ordinary rules of
statutory construction apply in interpreting the language of a zoning ordinance. Id. Generally, we review questions of law decided by an agency de novo.
Huffman v. Office of Envtl. Adjudication, 811
N.E.2d 806, 809 (Ind. 2004).
[18] The federal constitutional issue here arose during
judicial review of the BZA’s decision against UJEighty. There, the trial court determined that the
City had, through the Ordinance, violated the Due
Process Clause of the Fourteenth Amendment because the City had unlawfully delegated governmental authority to Indiana University without
“provid[ing] a standard to control the University’s
decision, nor d[id] it provide [UJ-Eighty] with a
right to a review of the University’s decision.”
(App. 201). Here, the BZA argues that the trial
court erred and that its determination that there
was no constitutional violation was correct. UJEighty argues that the City’s delegation of governmental authority to Indiana University violated its
due process rights because the Ordinance fails to
set forth standards or relevant considerations to

26a
guide Indiana University. We agree with UJEighty.
[19] The Fourteenth Amendment provides that “[n]o
State shall . . . deprive any person of life, liberty, or
property, without due process of law . . . .” U.S.
Const. amend. 14, § 1. It guarantees both procedural and substantive due process rights. McIntosh v. Melroe Co., 729 N.E.2d 972, 975 (Ind. 2000).
Substantive due process “bars certain arbitrary,
wrongful government actions regardless of the fairness of the procedures used to implement them.”
Zinermon v. Burch, 494 U.S. 113, 125 (1990) (quotation and citation omitted). In setting forth a claim
for violation of substantive due process, a party
must show either that the law infringes upon a fundamental right or liberties deeply rooted in our nation’s history or that the law does not bear a substantial relation to permissible state objectives.
Washington v. Glucksberg, 521 U.S. 702, 720-21
(1997); Moore v. City of East Cleveland, 431 U.S.
494, 499 (1977). Concerning procedural due process
protections, the United States Supreme Court has
explained that:
identification of the specific dictates of
due process generally requires consideration of three distinct factors: First,
the private interest that will be affected
by the official action; second, the risk of
an erroneous deprivation of such interest through the procedures used, and
the probable value, if any, of additional
or substitute procedural safeguards;
and finally, the Government’s interest,
including the function involved and the
fiscal and administrative burdens that

27a
the additional or substitute procedural
requirement would entail.
Mathews v. Eldridge, 424 U.S. 319, 335 (1976).
[20] Below, the trial court found that the City had contravened the guarantees of due process by effectuating an improper delegation of legislative authority to Indiana University. In so holding, the trial
court relied on the case of Washington ex rel. Seattle Title Trust Co. v. Roberge, 278 U.S. 116 (1928).
The BZA disputes the applicability of Roberge to
the facts of the instant case. Conversely, UJEighty asserts that when the City gave Indiana
University authority over the ability of private
landowners to use their property in a particular
manner, it engaged in the same delegation of power
held repugnant in Roberge.
[21] In Roberge, the Supreme Court considered a Seattle ordinance that permitted the construction of a
home for the elderly poor in a particular district
only if two-thirds of the property owners within 400
feet of the proposed building site gave written consent. After acknowledging “the right of the [landowner] to devote its land to any legitimate use is
property within the protection of the Constitution,”
the Roberge Court struck down the ordinance. Id.
at 121. The Roberge Court noted that the ordinance
made the construction subject to the approval of
third-party property owners “uncontrolled by any
standard or rule prescribed by legislative action
. . . .” Id. at 121–22. In addition to not being controlled by any standard or rule prescribed by legislative action, the ordinance made “no provision for
review,” and left the city and the plaintiff “bound by
the decision or inaction” of the property owners.
Id. at 122. The property owners were “free to

28a
withhold consent for selfish reasons or arbitrarily,”
and made the plaintiffs subject to their “will or caprice.” Id. The Roberge Court held that Seattle’s
“delegation of power” to third-party property owners was “repugnant to the due process clause of the
Fourteenth Amendment.” Id.
[22] Turning to the facts of this case, we are dealing
with a similar abrogation of zoning responsibility
“uncontrolled by any standard or rule prescribed
by legislative action.” Id. at 122. The City, via its
Ordinance, delegated to Indiana University the authority to decide whether a group of people will be
recognized or sanctioned as members of a fraternity or sorority for purposes of determining
whether a property owner complies with the Ordinance. Put differently, the City delegated its legislative authority to Indiana University to determine
whether the Property was being used by students
in a sanctioned fraternity.
[23] Moreover, the City provided no mechanism for reviewing Indiana University’s decision. The Ordinance states that Indiana University may sanction
or recognize the students as being members of a
fraternity or sorority “through whatever procedures Indiana University uses to render such a
sanction or recognition.” Bloomington Mun. Code.
§ 20.11.020. (emphasis added). Indeed, in Counceller, the other case relied upon by the trial court, a
panel of this Court determined that ordinances abdicating planning authority without restriction are
unconstitutional. See Counceller v. City of Columbus Plan Comm’n, 42 N.E.3d 146, 150-51 (Ind. Ct.
App. 2015), trans. denied. In that case, an ordinance required 75% of property owners in a subdivision to approve further subdivision of a lot within
the subdivision. The Counceller Court

29a
distinguished Roberge and held that ordinance was
not an improper delegation of authority because the
planning commission possessed the power to waive
the provision requiring the approval of the property
owners. Id. at 151. Here, there is no such language. The City has not provided any means for a
review of Indiana University’s decision and both
the City and property owners are bound by the university’s decision.
[24] The BZA argues that the Ordinance was constitutional because Indiana University no longer sanctioned TKE as a fraternity for students attending
Indiana University and that accordingly, UJEighty could no longer lease the Property to TKE.
In support, the BZA contends that “[c]odifying a
requirement for university affiliation is not an impermissible delegation of zoning authority[.]”
(BZA’s Br. 17). Rather, it “is a commonplace and
precise way of describing which organizations qualify as fraternities or sororities.” (BZA’s Br. 17).
The BZA’s justifications for this delegation of authority are unavailing. The Ordinance went beyond
defining fraternities or sororities as “entities affiliated with universities.” (BZA’s Br. 15). The City
gave the force of law to a determination by Indiana
University, an entity other than “a board of zoning
appeals” with “territorial jurisdiction over all land
subject to the zoning ordinance[.]” See I.C. § 36-74-901(e).
[25] Additionally, it should be noted that the amendment to the Ordinance is also clearly arbitrary and
unreasonable; the amendment created a situation
where the University was allowed to act, but UJEighty would be punished. It is undisputed that
UJ-Eighty took no affirmative action to violate the
Ordinance. At oral argument, Counsel for the

30a
Appellant was asked to identify any affirmative action taken by UJ-Eighty to violate the Ordinance;
he had no answer. UJ-Eighty had properly leased
its property to a fraternal organization. See Bromley v. McCaughn, 280 U.S. 124, 140 (1929) (Sutherland, J., dissenting) (the right to give property is as
old as the right to use or possess property). It took
no action to otherwise violate the ordinance. It was
the University’s action (removing TKE from the list
of sanctioned fraternities) which triggered the ordinance violation that the City sought to enforce
against UJ-Eighty. As a result, allowing a third
party to engage in actions, following whatever procedures it deems necessary, that trigger zoning violations against a property owner arbitrarily and unreasonably deprives the property owner of its due
process rights under the Fourteenth Amendment.
See Roberge, 278 U.S. 116.
[26] Accordingly, we hold that the City, via its Ordinance, impermissibly delegated to Indiana University the authority to decide whether a group of people will be recognized or sanctioned as members of
a fraternity or sorority for purposes of determining
whether a property owner complies with the Ordinance, in violation of the Fourteenth Amendment.
Therefore, we affirm the judgment of the trial court
setting aside the BZA’s decision to uphold the issuance of the NOVs as unconstitutional and not in accordance with law.
[27] Affirmed.
Robb, J., concurs.
Bailey, J., dissents with separate opinion.

31a
IN THE
COURT OF APPEALS OF INDIANA
City of Bloomington
Board of Zoning Appeals,

Court of Appeals Case
No. 19A-PL-457

Appellant,
v.
UJ-Eighty Corporation,
Appellee.

Bailey, Judge, dissenting.
[28] The trial court declared the Ordinance facially invalid and struck down the definition of fraternity
house in the Ordinance. The majority affirms this
decision. Yet, there is a presumption in favor of
constitutionality. Whistle Stop Inn, Inc. v. City of
Indianapolis, 51 N.E.3d 195, 199 (Ind. 2016). Indeed, the Ordinance “stands before this Court
clothed with the presumption of constitutionality
until clearly overcome by a contrary showing.” Id.
(quoting Paul Stieler Enters., Inc. v. City of Evansville, 2 N.E.3d 1269, 1273 (Ind. 2014)). Ultimately,
to declare a law facially invalid, the challenger—in
this case, UJ-Eighty—must have met the “heavy
burden” of demonstrating there is “no set of circumstances under which the [law] can be constitutionally applied.” Meredith v. Pence, 984 N.E.2d
1213, 1218 (Ind. 2013) (quoting Baldwin v. Reagan,
715 N.E.2d 332, 337 (Ind. 1999)). The majority
strikes down the definition, concluding that UJ-

32a
Eighty met this considerable burden. I must disagree.
[29] The majority declares the law facially invalid for
failing to provide due process guaranteed by the
Fourteenth Amendment to the U.S. Constitution.
There are two types of due process: substantive due
process and procedural due process.
Substantive Due Process
[30] In the context of zoning ordinances, substantive
due process requires that a zoning ordinance bear a
“rational relationship to permissible state objectives.” Moore v. City of E. Cleveland, Ohio, 431
U.S. 494, 498 (1977) (citing Vill. of Euclid, Ohio v.
Ambler Realty Co., 272 U.S. 365 (1926)). Here, the
Ordinance—which regulates housing for university
students—rationally relates to the permissible objective of protecting students. Thus, the Ordinance
satisfies the requirements of substantive due process. To the extent the majority characterizes the
Ordinance as “clearly arbitrary and unreasonable”
because “UJ-Eighty took no affirmative action to
violate the Ordinance,” supra at 15, this case arose
because UJ-Eighty chose to rent its property. Its
tenants did not satisfy the definition in the Ordinance—and I discern nothing arbitrary or unreasonable about holding a landlord accountable for
ensuring use of its property complies with the law.
Procedural Due Process
[31] Turning to procedural due process, to determine
what process is generally due under the Fourteenth
Amendment, courts must consider the Eldridge factors:

33a
First, the private interest that will be
affected by the official action; second,
the risk of an erroneous deprivation of
such interest through the procedures
used, and the probable value, if any, of
additional or substitute procedural
safeguards; and finally, the Government’s interest, including the function
involved and the fiscal and administrative burdens that the additional or substitute procedural requirement would
entail.
Mathews v. Eldridge, 424 U.S. 319, 335 (1976). Notably, the U.S. Supreme Court has explained that
due process “does not require that ‘the procedures
used to guard against an erroneous deprivation . . .
be so comprehensive as to preclude any possibility of
error.’” Walters v. Nat’l Ass’n of Radiation Survivors, 473 U.S. 305, 320 (1985) (alteration in original)
(quoting Mackey v. Montrym, 443 U.S. 1, 13 (1979)).
Moreover, the Court has “emphasized that the marginal gains from affording an additional procedural
safeguard often may be outweighed by the societal
cost of providing such a safeguard.” Id. at 321.
Delegation
[32] Before discussing the Eldridge factors, I will note
that the majority focuses on the concept of delegation, ultimately holding “that the City improperly
delegated authority to Indiana University in violation of the Due Process Clause of the Fourteenth
Amendment.” Supra at 3. Yet, in general, the U.S.
Constitution is not concerned with how a state goes
about delegating powers reserved to it. Rather,
whether and how there may be a delegation of state

34a
power is a question of state law. See Ind. Dep’t of
Nat. Res. v. Newton Cty., 802 N.E.2d 430, 432-35.
Instead, the Fourteenth Amendment is concerned
with whether the Ordinance provides adequate procedural protections. The purpose of these procedures is to safeguard against an erroneous deprivation, not to second-guess the channels of state
authority. See Walters, 473 U.S. at 321 (“Procedural due process rules are shaped by the risk of
error inherent in the truth-finding process . . . .”
(quoting Eldridge, 424 U.S. at 344)). Indeed, the
touchstone of procedural due process is whether
the process leading to the deprivation of a protected interest is fundamentally fair. See id. at 32021.5
To the extent the majority reads State of Washington ex rel. Seattle
Title Tr. Co. v. Roberge, 278 U.S. 116 (1928), as commenting on delegation, that case is ultimately about arbitrary government action—
not procedural due process. Thus, Roberge is germane to discussions
about substantive due process, not the instant discussion. See Roberge, 278 U.S. at 122-23. Indeed, Roberge involved an ordinance that
permitted lodging as many as sixty people, and was amended to specify that “[a] philanthropic home for children or for old people shall be
permitted . . . when the written consent shall have been obtained of
the owners of two-thirds of the property within four hundred (400)
feet of the proposed building.” 278 U.S. at 118. The Court expressed
concern that, on the one hand, the legislative body had “grant[ed] . . .
permission for such building and use” while, on the other hand, the
grant of permission “purport[ed] to be subject to [neighbor] consents.” Id. The Court determined that the structure of the ordinance
“shows that the legislative body found that the construction and
maintenance of the new home was in harmony with the public interest
and with the general scope and plan of the zoning ordinance.” Id. In
rejecting the ordinance, the Court did not disapprove of the neighborconsent provision contained in the ordinance. See id. at 122 (discussing, distinguishing, and implicitly endorsing Thomas Cusack Co. v.
City of Chicago, 242 U.S. 526 (1917), which upheld a neighbor-consent
provision). Rather, the Court held that the neighbor-consent provision was unrelated to the police power, therefore, the provision was
5

35a
[33] In any case, there was no delegation here. The City
enacted the Ordinance, which sets forth a discernible definition for a fraternity house. The definition
turns on whether Indiana University sanctioned the
fraternity—a measurable standard. I therefore disagree with the majority’s conclusion that the City
delegated power to Indiana University “to determine whether the Property was being used by students in a sanctioned fraternity.” Supra at 14. To
the contrary, the City enacted the Ordinance—and
the City decides whether use of the property complies with the Ordinance. Ultimately, there was no
delegation. Moreover, there is no dispute that procedures are in place allowing a landlord like UJEighty to challenge the City’s determination of
non-compliance.
Eldridge Factors
[34] The majority identifies procedures that the Ordinance could have included—and it strikes down the
Ordinance because of a lack of those procedures.
Specifically, the majority concludes that the Ordinance should have “set forth standards or relevant
considerations to guide Indiana University.” Supra
at 11. The majority also concludes that the Ordinance should have included a “mechanism for reviewing Indiana University’s [sanctioning] decision.” Id. at 14. The majority draws these procedures from dicta in Roberge, a 1928 decision handed

“arbitrary and repugnant to the due process clause.” Id. at 123. In
other words, the constitutional defect was not that the ordinance contained a neighbor-consent provision. Instead, the defect was that the
provision did not rationally relate to a permissible state objective. See
id. at 121-23.

36a
down long before the U.S. Supreme Court adopted
the Eldridge factors.
[35] Although the majority identifies additional procedures, it does not apply all of the Eldridge factors.
Indeed, the majority does not weigh the effectiveness of the additional procedures against the societal cost. See Eldridge, 424 U.S. at 335. Adhering to
Eldridge, I would conclude that the proffered additional procedures are not constitutionally required
because they lack value—and any marginal gain
would not outweigh the societal cost. See Walters,
473 U.S. 305 at 320-21.
Standards to Guide Indiana University
[36] As to including “standards or relevant considerations to guide Indiana University,” supra at 11, Indiana University is a state educational institution,
I.C. § 21-20-2-1. As such, it is bound to follow the
U.S. Constitution and Indiana Constitution. UJEighty failed to demonstrate how standards set by
the City—as opposed to those adopted by Indiana
University in view of its constitutional obligations—
would better protect against erroneous deprivation.
Review Procedure
[37] As to a “mechanism for reviewing Indiana University’s decision,” supra at 14, this procedure would
burden the City—requiring the expenditure of public resources on matters another arm of government already addressed. Further, although UJEighty challenges only the portion of the Ordinance
related to whether IU sanctioned the fraternity, the
Ordinance also ties the definition of a fraternity
house to whether all residents are “enrolled at the
Indiana University Bloomington campus.”

37a
Bloomington Mun. Code § 20.11.020. Thus, applying the logic UJ-Eighty advances—and the majority adopts—the City must also undertake the considerable burden of reviewing Indiana University
enrollment decisions. I cannot say that due process
demands such a heavy societal cost.
[38] The majority also focuses on language in the Ordinance permitting Indiana University to use “whatever procedures Indiana University uses” to sanction a fraternity. Id. (emphasis added). The majority suggests that this open-ended procedural language invites Indiana University to make unfair
sanctioning decisions—decisions that, in turn, unfairly affect a landlord like UJ-Eighty. However,
the language must not be read out of context.
Again, as a state university, Indiana University is
bound to comply with the state and federal constitutions. I cannot say UJ-Eighty has demonstrated
that the challenged language—read in context—
creates a high risk of an erroneous deprivation.
[39] Ultimately, due process requires procedures that
are fundamentally fair. Walters, 473 U.S. at 320.
Under the unique circumstances of this case—involving the interrelationship of independent arms of
government that are protecting students in a university town—I would conclude UJ-Eighty failed to
demonstrate that the Ordinance and its attendant
procedures are deficient.
[40] For these reasons, I respectfully dissent.

38a
APPENDIX C

STATE OF
INDIANA

)
)
) SS:
COUNTY OF )
MONROE
)

MONROE CIRCUIT
COURT #1
CAUSE NO. 53C011806-PL-01240

U-J-EIGHTY CORPORATION,
PETITIONER,
VS.
CITY OF BLOOMINGTON
BOARD OF ZONING APPEALS,
RESPONDENT
ORDER
This cause is now at issue regarding the Petition for
Judicial Review of Zoning Decision filed herein by the petitioner. U-J Eighty Corporation. The Court, being duly
advised, now finds and Orders as follows:
1. The petitioner requests that the Court strike down the
City of Bloomington’s Unified Development Ordinance definition of “Fraternity/Sorority House “ as
unlawful, to set aside the adverse decision of the City
of Bloomington Board of Zoning Appeals, and to order
the Board of Zoning Appeals to dismiss and vacate the
two Notices of Violations issued to the petitioner.
2. The facts in this case are not disputed. The petitioner
owns real estate located at 1640 North Jordan Avenue,
in Bloomington, Indiana. The petitioner purchased
this property in 2002. Prior to the petitioner’s purchase of the property, the Sigma Alpha Mu fraternity
had purchased the property from Indiana University.

39a
The property has a plat restriction which requires that
it be used solely for student housing. On August 4,
2016, the petitioner leased the property to the
Gamma-Kappa Chapter of Tau Kappa Epsilon, Inc.
(TKE). Under the terms of this lease, the property
was to be used, occupied, and maintained by the TKE
local as a student dormitory for its members and house
director. The term of the lease was from August 5,
2016 until May 14, 2019.
3. In February 2018, Indiana University notified the
members of the TKE local that they could no longer
reside on the petitioner’s property because the TKE
local had lost its official sanction by the University.
The University offered the members the opportunity
to move to dormitories operated by Indiana University. Members of the fraternity moved out, however
two individuals remained to reside on the property.
4. On February 22, 2019 and February 28, 2018, the respondent through its City of Bloomington Planning
and Transportation Department issued Notices of Violation to the petitioner. These notices alleged that
the petitioner was in violation of the Bloomington Municipal Code’s Unified Development Ordinance (UDO)
20.02.500 Institutional Permitted Uses” for the reason
that the property no longer met the definition of a “fraternity/sorority house” as defined by the Code and the
use of the property as a dwelling by the two individuals
was not permitted in an Institutional zoning district.
5. The petitioner appealed the decision of the Planning
Department to the Board of Zoning Appeals. On June
13, 2018, the Board of Zoning Appeals denied the petitioner’s petition for an administrative appeal and affirmed the issuance of the Notices of Violations.
6. Pursuant to I.C. 36-7-4-1614, the petitioner has the
burden of demonstrating the invalidity of a zoning

40a
decision. I.C. 36-7-1614 (d) provides: “ The Court shall
grant relief under section 1615 [IC 36-7-4-1615 of this
chapter only if the court determines that a person
seeking judicial relief has been prejudiced by a zoning
decision that is: (1) arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law;
(2) contrary to constitutional right, power, privilege,
or immunity; (d) in excess of statutory jurisdiction, authority, or limitations, or short of statutory right;
(4) without observance of procedures required by law;
or (5) unsupported by substantial evidence.”
7. This proceeding is not a trial de novo. This Court cannot substitute its own judgment for or reweigh the
Board’s findings. See Wastewater One, LLC. V.
Floyd Cty. Bd. Of Zoning Appeals 947 N.E. 2d 1040,
(Ind. Ct. App. 2011) However, if a question before the
trial court presents a pure question of law, the court is
not required to defer to the determination of the
Board and the and may substitute its judgment for
that of the Board if the trial court finds that the
Board’s determination was illegal. See Holmes v. Bd.
Of Zoning Appeals of Jasper Cty. 634 N.E. 2d 522,
(Ind. Ct. App. 1994).
8. When the petitioner purchased the property in 2002,
the Bloomington Municipal Code referred to the zoning district in which the property was located as an
“Institutional “ zoning district and allowed all the
properties in this district to be used as a “Fraternity
or Sorority”. At that time, the phrase “Fraternity or
Sorority” was defined as follows:
“ A building or portion thereof used for
sleeping accommodations, with or without
accessory common rooms and cooking and
eating facilities, for groups of unmarried
students in attendance at an educational

41a
institution. Shall also include any building
or portion thereof in which individual
rooms or apartments are leased to individuals, but occupancy is limited to members
of a specific fraternity or sorority, regardless of the ownership of the building or the
means by which occupancy is so limited.”
9. In 2006, the city of Bloomington adopted the Unified
Development Ordinance and in 2015, the Bloomington
City Council amended the definition of “Fraternity or
Sorority” for purposes of the Unified Development
Ordinance to provide as follows:
“Fraternity/Sorority House” means a
building or portion thereof used for sleeping accommodations, with or without accessory common rooms and cooking and
eating facilities, for groups of unmarried
students who meet the following requirements: all students living in the building
are enrolled at Indiana University, Bloomington Campus; and Indiana University
has sanctioned or recognized the students
living in the building as being members of
a fraternity or sorority through whatever
procedures Indiana University uses to render such a sanction or recognition. Shall
also include a building or portion thereof in
which individual rooms or apartments are
leased to individuals, but occupancy is limited to members of a specific fraternity or
sorority, regardless of the ownership of the
building or the means by which occupancy
is so limited, provided the two

42a
requirements noted in the first sentence of
this definition are also met.”
10. In denying the petitioner’s administrative appeal, the
respondent found that notices of violation were
properly issued because Indiana University no longer
sanctioned or recognized Gamma-Kappa Chapter of
Tau Kappa Epsilon, Inc. as a fraternity for students
attending Indiana University and that accordingly,
the petitioner could no longer lease its property to the
local TKE chapter for student housing. The respondent argues that this application of the Code is proper
because it is reasonable for the definition to limit the
definition of fraternities and sororities to those sanctioned or recognized by Indiana University.
11. The petitioner asserts that the definition is invalid under Indiana and Federal law, that its application violates due process, and that the respondent’s actions
constitute an unlawful taking.
12. After considering all of the evidence and arguments of
the parties, the Court finds the petitioner has proven
that the respondent’s actions are contrary to law and
violates the Constitution of Indiana. As argued by the
petitioner, Article 4 Section 1 of the Indiana Constitution delegates the legislative authority to the General
Assembly and the General Assembly has delegated
planning and zoning powers to municipalities and their
respective plan commissions and boards of zoning appeals. The respondent has improperly delegated the
authority to Indiana University to unilaterally define
what constitutes a fraternity or sorority under the respondent’s Unified Development Ordinance.
13. The Court also finds that the petitioner has established that the respondent’s actions also constitute an
unlawful delegation of governmental authority in

43a
violation of the due process clause of the Fourteenth
Amendment of the United States Constitution. As argued by the petitioner, the respondent’s definition allows Indiana University to unilaterally determine how
the petitioner may use its property and both the respondent and the petitioner are bound by that determination. The respondent’s Ordinance does not provide a standard to control the University’s decision,
nor does it provide the petitioner with a right to a review of the University’s decision. Under the definition, the University can make the decision to recognize
or sanction a fraternity under whatever procedures
that it chooses, without restriction. This type of delegation of authority has been found to be unconstitutional as found by the Supreme Court of the United
States in State of Washington ex re. Seattle Title
Trust Co. v. Roberge, 278 U.S. 116 (1928). More recently the Indiana Court of Appeals in Counceller v.
City of Columbus Plan Com’n 42 N.E. 3d 146 (Ind. Ct.
App. 2015) cited the Roberge case and acknowledged
that zoning ordinances which grant unrestricted
power to neighbors to withhold consent for a particular property use are unconstitutional. The respondent’s definition of fraternities gives Indiana University
the unrestricted power to determine the petitioner’s
use of its property without providing any mechanism
for reviewing and overruling the University’s decision,
and for this reason is unconstitutional and not in accordance with law.
14. The Court now grants the Petition for Judicial Review,
strikes down the definition of “Fraternity/Sorority
House” as defined by the Bloomington Unified Development Ordinance as unlawful , sets aside the decision
of the Board of Zoning Appeals, and Orders the Board
of Zoning Appeals to dismiss and vacate the Notices of
Violation issued against the petitioner.

44a
15. The Court, having granted the Petition for Judicial
Review on other grounds, finds that no reason exists
to address the petitioner’s argument that the respondent’s actions constitute a taking.
Cause disposed.
All Ordered this 6th day of February, 2019.

Frank M. Nardi, Special Judge
Monroe Circuit Court # 1
cc:

D. Michael Allen
Anahit Behjou
Larry D. Allen
Michael M. Rouker

45a
APPENDIX D

STATE OF INDIANA
IN THE MONROE COUNTY CIRCUIT COURT
CAUSE NO. 53C01-1806-PL-001240
UJ-EIGHTY CORPORATION,
Petitioner,
v.
CITY OF BLOOMINGTON
BOARD OF ZONING APPEALS,
Respondent.
VERIFIED PETITION FOR
JUDICIAL REVIEW OF ZONING DECISION
Petitioner UJ-Eighty Corporation (“Petitioner” or
“UJ-Eighty”), by counsel MALLOR | GRODNER LLP,
pursuant to Indiana Code, section 36-7-4-1600, et seq., petitions the Court for judicial review of a zoning decision of
the City of Bloomington Board of Zoning Appeals (“Respondent” or “BZA”) and in support states:
1. UJ-Eighty is an Indiana nonprofit corporation
with its principal office and mailing address located at
2090 Windy Hill Lane, Highland Park, Illinois 60035.
2. The BZA is an administrative agency created under the laws of the State of Indiana and whose mailing address is 401 North Morton Street, Suite 130, Bloomington,
Indiana 47404.
3. UJ-Eighty is the record owner of real property
located at 1640 North Jordan Avenue, Bloomington,

46a
Indiana, 47406 (the “Property”), which it acquired in June
2002.
4. At all times relevant to the zoning decision at issue in this petition, the Property has been zoned “Institutional”, as that term is defined in the City of Bloomington,
Indiana’s Bloomington Unified Development Ordinance
(the “UDO”).
5. There is a building located on the Property which
has been used as a fraternity/sorority house since its construction in 1984.
6. On August 4, 2016, UJ-Eighty leased the Property to the Gamma-Kappa Chapter of Tau Kappa Epsilon,
Inc. (“TKE”).
7. Pursuant to the terms of the lease agreement between UJ-Eighty and TKE, the Property was to be used,
occupied, and maintained by TKE as a fraternity house
with lodging for the members of TKE and for TKE’s
House Director.
8. The term of the lease between UJ-Eighty and
TKE was from August 5, 2016 through May 14, 2019.
9. On or about February 8, 2018, Indiana University Bloomington (the “University”) and the national Tau
Kappa Epsilon organization revoked their sanction and
recognition of TKE.
10. Shortly thereafter, the University informed the
members of TKE residing in the building on the Property
that said TKE members could no longer reside in the
building on the Property because the University no longer
sanctioned or recognized TKE as a fraternity.
11. The University then offered the TKE members
an opportunity to move into the University’s dormitories,
subject to a fee.

47a
12. Most TKE members who had contracts to reside
in the building on the Property quit residing in the building on the Property and secured other housing alternatives, including the University’s dormitories.
13. On February 22, 2018, the City of Bloomington
Planning and Transportation Department (“Planning”)
mailed a Notice of Violation to UJ-Eighty. A true and accurate copy of the February 22, 2018 Notice of Violation
is attached hereto as Exhibit A.
14. The February 22, 2018 Notice of Violation alleged that the Property was being used by two individuals
as a dwelling in an “Institutional zoning district which
does not permit dwelling of any type, as per the Bloomington Municipal Code’s Unified Development Ordinance
[the “UDO”] Section 20.02.500 Institutional Permitted
Uses. As of February 18, 2018, [the Property] no longer
meets the UDO definition of a ‘fraternity’, a permitted use
in Institutional zoning districts.”
15. On February 28, 2018, Planning mailed a second
Notice of Violation to UJ-Eighty. A true and accurate
copy of the February 28, 2018 Notice of Violation is attached hereto as Exhibit B.
16. The February 28, 2018 Notice of Violation restated the same alleged non-compliance as did the February 22, 2018 Notice of Violation.
17. The UDO contains the following definition for
“Fraternity/Sorority House”:
“Fraternity/Sorority House” means a building or portion thereof used for sleeping accommodations, with or without accessory
common rooms and cooking and eating facilities, for groups of unmarried students
who meet the following requirements: all
students living in the building are enrolled

48a
at the Indiana University Bloomington
campus; and Indiana University has sanctioned or recognized the students living
in the building as being members of a fraternity or sorority through whatever procedures Indiana University uses to render such a sanction or recognition. Shall
also include a building or portion thereof in
which individual rooms or apartments are
leased to individuals, but occupancy is limited to members of a specific fraternity or
sorority, regardless of the ownership of the
building or the means by which occupancy
is so limited, provided the two requirements
noted in the first sentence of this definition
are also met.
City of Bloomington UDO § 20.11.020 (emphasis added)
(the “Ordinance”).
18. The definition for “Fraternity/Sorority House”
contained within the UDO, as interpreted by Planning,
delegates to the University the authority to determine:
(a) whether a private landowner is in compliance with the
UDO; and (b) how that private landowner may use its own
property.
19. As interpreted by Planning, the Ordinance constitutes an unconstitutional delegation of governmental
authority.
20. UJ-Eighty disputed the alleged violation of the
UDO on March 7, 2018, by sending its Appeal of Notice of
Violation, 1640 North Jordan (the “Notice of Appeal”) to
the BZA. A true and accurate copy of the Notice of Appeal
is attached hereto as Exhibit C.

49a
21. In its Notice of Appeal, UJ-Eighty argued that it
did not violate the UDO and that the UDO was an unconstitutional delegation of power to the University.
22. On March 8, 2018, UJ-Eighty sent Planning its
application for an appeal from an administrative decision
before the BZA (the “Application”). A true and accurate
copy of the Application is attached hereto as Exhibit D.
23. In the Application, UJ-Eighty requested: “Administrative appeal of the Department’s decision to issue
two Notices of Violation of non-compliance with the Unified Development Ordinance Section 20.02.500.”
24. The administrative appeal hearing on UJEighty’s appeal took place before the BZA on May 24,
2018.
25. UJ-Eighty was represented at the May 24, 2018
BZA hearing by its President, Michael Shartiag, and by
its attorneys, Garry Founds of Mallor Grodner LLP and
Timothy Burke of Manley Burke, L.P.A.
26. The BZA was required to issue a written decision
following the administrative appeal hearing in compliance
with Indiana Code, section 36-7-4-919(f).
27. On June 13, 2018, the BZA provided its written
decision in which the BZA denied UJ-Eighty’s petition for
an administrative appeal and affirmed Planning’s issuance of the February 22, 2018 Notice of Violation and the
February 28, 2018 Notice of Violation (the “Zoning Decision”). A true and accurate copy of the Zoning Decision is
attached hereto as Exhibit E.
28. The Zoning Decision does not comply with Indiana law.
29. The Zoning Decision was issued by Jackie Scanlan, Development Services Manager with Planning, and
not by any member of the BZA.

50a
30. The Zoning Decision does not contain any factual
findings to support the BZA’s denial of UJ-Eighty’s administrative appeal.
31. The Zoning Decision affirms Planning’s interpretation of the definition of “Fraternity/Sorority House”,
which, according to Planning, requires that all individuals
residing at the Property be members of a single fraternity
or sorority and that such fraternity or sorority must be
formally sanctioned or recognized by the University.
32. As a result of the Zoning Decision, UJ-Eighty
has been prejudiced as follows:
a. UJ-Eighty’s tenant TKE vacated the Property
and UJ-Eighty was no longer able to lease the
Property to TKE.
b. UJ-Eighty is no longer able to lease the Property to any fraternity or sorority that is not officially sanctioned or recognized by the University.
c. The Property has been rendered essentially
useless, in that the pool of potential tenants is
now extremely limited.
d. UJ-Eighty has suffered a taking without payment of just compensation, in violation of the
United States Constitution and the Indiana
Constitution.
e. UJ-Eighty cannot have a caretaker reside at the
Property to maintain and protect the Property
from loss and damage, during any period that
the Property is not occupied by members of a
single, University sanctioned or recognized, fraternity or sorority, without incurring fines of up
to seven thousand five hundred dollars
($7,500.00) per day.
33. The Zoning Decision constitutes an abuse of discretion by the BZA.

51a
34. The Zoning Decision is arbitrary.
35. The Zoning Decision is not in accordance with
the law and contrary to the constitutional rights of UJEighty.
36. The Zoning Decision is without observance of
procedure required by law.
37. The Zoning Decision is unsupported by substantial evidence.
38. UJ-Eighty has been prejudiced by one (1) or
more of the grounds described in Indiana Code, section
36-7-4-1614.
39. UJ-Eighty has standing to obtain judicial review
of the zoning decision because the two notices of violation
and the Zoning Decision were directed to UJ-Eighty.
40. The June 13, 2018 Zoning Decision was the final
administrative remedy available to UJ-Eighty because
the BZA makes the final decision concerning appeals from
administrative decisions.
41. UJ-Eighty has exhausted all of its administrative
remedies available regarding the Zoning Decision at issue
in this petition.
42. This petition is being filed on June 22, 2018, a
date not later than thirty (30) days after the date of the
Zoning Decision that is the subject of this case.
43. Within thirty (30) days after the filing of the petition, or within further time that may be allowed by the
Court, UJ-Eighty shall transmit to the Court the original
or a certified copy of the BZA record for judicial review of
the Zoning Decision.
WHEREFORE Petitioner, UJ-Eighty Corporation,
requests the Court set aside the Zoning Decision and compel the City of Bloomington Board of Zoning Appeals to

52a
dismiss and vacate the February 22, 2018 Notice of Violation and the February 28, 2018 Notices of Violation.
VERIFICATION
I affirm, under the penalties for perjury, that the foregoing
representations are true.
UJ-Eighty Corporation

Submitted by Counsel:

MALLOR | GRODNER LLP

MALLOR | GRODNER LLP
511 Woodscrest Drive
Bloomington, Indiana 47401
(812) 332-5000

53a
APPENDIX E

March 7, 2018
Board of Zoning Appeals
City of Bloomington
401 N. Morton Street
Bloomington, IN 47404
Re:

Appeal of Notice of Violation, 164o N. Jordan Ave

Dear Chairman and Members of the Board,
This letter is written on behalf of applicant and current property owner, U.J. Eighty Corp. (“UJ80” or “Applicant”). Pursuant to Unified Development Ordinance
(UDO) Section 20.09.350, notice is hereby given of the appeal of the Zoning Compliance Planner’s decision to issue
two Notices of Violation (NOV) of non-compliance with
the Unified Development Ordinance (UDO) Section
20.02.500 [Institutional (IN); Permitted Uses] at 1640 N.
Jordan Ave. (the “Subject Property”).
I.

Property Description

The parcel at issue in this application is 1640 N. Jordan Avenue, Monroe County Parcel Identification Number 53-05-27-301-006.000-005. The Subject Property is located in the Institutional (IN) District.
II.

Background and Proposed Development

UJ80 acquired title to the Subject Property from
Farmers State Bank in June 2002. Prior to UJ80’s acquisition, Sigma Alpha Mu fraternity had purchased the Subject Property from Indiana University Bloomington
(“IU”). On August 4, 2016, UJ80 leased the Subject Property to the Gamma-Kappa Chapter of Tau Kappa Epsilon,
Inc. (“TKE”) and intended the Subject Property to be
used, occupied and maintained by TKE as a student dormitory for the members of TKE and as lodging for TKE’s

54a
House Director (the “Lease Agreement”). The term of the
Lease Agreement began on August 5, 2016 and was to
continue until May 14, 2019.
The students were notified that TKE chapter would
no longer be recognized by IU or its national. However,
IU also informed those members of TKE that they could
no longer reside in the house located at the Subject Property because of the loss of recognition. In turn, IU offered
the TKE members an opportunity to move into IU dormitories as alternative options for their next residence. Most
TKE members who had Housing Contracts to live in 1640
N. Jordan quit residing at the Subject Property and found
university housing or other housing alternatives.
Then, on February 25, 2018, UJ80 received the NOV
from the City of Bloomington Planning and Transportation Department dated February 22, 2018, through their
Zoning Compliance Planner, Carl Buddin (the “February
22 NOV”), which did not comply with the Code. The February 22 NOV stated that it served as a formal warning of
non-compliance with the Unified Development Ordinance
(UDO) Section 20.02.500 [Institutional (IN); Permitted
Uses] at the Subject Property. Accordingly, Section
20.02.500 provides the list of permitted uses in the Institutional (IN) District, including “fraternity house/sorority
house.”
The February 22 NOV went on to state that, “as of
February 18, 2018, 1640 N. Jordan Ave no longer meets
the UDO definition of a ‘fraternity’, a permitted use in Institutional zoning districts.”
The February 22 NOV stated that the Planning and
Transportation department was informed on February
20, 2018, that two individuals had not vacated the house
on the Subject Property and was thus an illegal land use.
Under UDO Section 20.10, this violation carries a fine of
up to $2,500. The February 22 NOV stated that

55a
subsequent violations could be found and UJ80 would be
fined up to $7,500, three times the previous fine, if the
Subject Property was still being used as a residence.
While no fines were issued at the time of the February 22 NOV, the Planning and Transportation Department sent UJ80 a second NOV on February 28, 2018 (the
“February 28 NOV”), which was received by UJ80 on
March 3. In the February 28 NOV, the City restated the
warning of non-compliance with the UDO Section
20.02.500 Institutional Permitted Uses issued in the previous February 22 NOV, but this time stating that the
Subject Property no longer meets the UDO definition of
a ‘Fraternity/Sorority House.’ It was meant to correct defects in the February 22 NOV.
Once again, the Planning and Transportation Department issued no fines, but did offer two options to “remedy
the situation and avoid further enforcement.” The first of
which was to cease use of the house as a dwelling unit.
III.

Requested Relief

UJ80 requests the Board of Zoning Appeals revoke both the February 22 NOV and February 28 NOV
because UJ80 is not in violation of UDO Section 20.11.020.
Additionally, while UJ80 recognizes that it must take several further steps in order to perfect this request, it also
intends to request a use variance while this matter is being resolved so that one individual may occupy the Subject
Property as a house director to maintain the Subject
Property and look after its safety.
IV.

Basis for ZBA Reversal of Decision

The Zoning Compliance Planner, Carl Buddin, issued the two NOVs without a basis for a violation. Applicant states that there are four reasons for both the February 22 NOV and February 28 NOV to be dismissed.

56a
First, no violation has occurred at the Subject
Property because, under the language of UDO Section
20.11.060, ‘Fraternity/Sorority House’, IU does not require that TKE be a recognized fraternity by IU. The definition expressly states:
“Fraternity/Sorority House” means a
building or portion thereof used for sleeping accommodations, with or without accessory common rooms and cooking and
eating facilities, for groups of unmarried
students who meet the following requirements: all students living in the building
are enrolled at the Indiana University
Bloomington campus; and Indiana University has sanctioned or recognized the
students living in the building as being
members of a fraternity or sorority
through whatever procedures Indiana University uses to render such a sanction or
recognition. Shall also include a building or
portion thereof in which individual rooms
or apartments are leased to individuals,
but occupancy is limited to members of a
specific fraternity or sorority, regardless
of the ownership of the building or the
means by which occupancy is so limited,
provided the two requirements noted in
the first sentence of this definition are also
met.
UDO Section 20.11.020 (emphasis added). Under the
language of this Section 20.11.020, there is no requirement that all students living in the building be members
of a recognized fraternity or sorority. Instead, the definition of Fraternity/Sorority House merely requires that

57a
“Indiana University has sanctioned or recognized the
students living in the building as being members of a fraternity or sorority . . .” UDO Section 20.11.020.
Under the language provided in this definition of Fraternity/Sorority House, the City of Bloomington does not
require that the fraternity be recognized by IU, but instead requires that the students living in the building be
recognized as members of a fraternity or sorority. Under
this definition, the house located at the Subject Property
could house members of the fraternities of TKE, Alpha
Epilson Pi, and Delta Tau Delta as well as provide housing
to members of the sororities Alpha Delta Pi and Chi
Omega, so long as IU recognizes that the students are
members of those fraternities and sororities.
In this case, IU has recognized that the students that
were residing at the Subject Property are members of the
TKE fraternity. While IU does not sanction TKE, it
would undoubtedly acknowledge that the tenants of the
house remain members of TKE. Therefore, UJ80’s use of
the Subject Property is not a violation of Section
20.11.060. As a result, UJ80 requests that this Board of
Zoning Appeals find that the Zoning Compliance Planner
misinterpreted the definition of “Fraternity/Sorority
House” to require the fraternity to be recognized by IU,
instead of merely requiring that IU has “recognized the
students living in the building as being members of a fraternity or sorority.”
Additionally, IU requires every recognized fraternity
and sorority that occupies a facility to have live-in house
director. These house directors are sometimes graduate
students of IU. However, they are often not members of
a fraternity or sorority (or at least one recognized by IU).
Thus, if one uses the incorrect interpretation of the UDO
employed by the Zoning Compliance Planner and then applies IU’s own policy with respect to live-in house

58a
directors, it becomes impossible for any fraternity or sorority to fully comply with the UDO.
Second, to the extent IU is authorized to determine
which groups are recognized for purposes of zoning, the
City of Bloomington has created an unlawful delegation of
zoning authority to IU by authorizing IU to define the
meaning of “Fraternity/Sorority House” under UDO Section 20.11.060. It is instructive to note that the applicable
definition under the UDO in effect until at least 2007 made
no reference whatsoever to IU or any other specific educational institution and, therefore, did not unlawfully delegate zoning authority.
Further, this unlawful delegation has allowed IU to
profit from Applicant’s hardship because IU has a financial interest in causing the students who are members of
TKE to move out of the UJ80’s Subject Property and into
IU housing. In other words, IU is deriving financial gain
from the Subject Property being prohibited from renting
its house to the student members of TKE or any other
fraternity or sorority.
This delegation by the City of Bloomington is an illegitimate delegation of power to a limited institution and
effectively constrains the City to act within the confines of
determinations made by one institution, IU. As a result of
this delegation of authority, the City has created an effect
over its own authority and has limited its final decisionmaking authority over zoning matters involving Fraternity or Sorority Houses.
Third, the interpretation by the Zoning Administrator essentially renders the Subject Property useless. It
constitutes a taking. If IU is allowed to dictate that only
certain members of fraternities or sororities may lease
the Subject Property, there becomes a small or nonexistent pool of potential tenants for UJ80 to rent the Subject
Property to. This is even more problematic when IU has

59a
a financial interest in constraining the pool of applicants
so that more students will pay to live in IU residence halls.
Fourth and finally, at the very least, UJ80 has a right
as a nonconforming use to rent the Subject Property out
to fraternity and sorority members who may not be in a
group recognized by IU. The definition of fraternity/sorority house was amended in the Code in December of
2016, 14 years after UJ80 purchased the Subject Property. The applicable definition at the time Applicant acquired the Subject Property made no reference whatsoever to IU or any other specific educational institution and
read as follows:
A building or portion thereof used for
sleeping accommodations, with or without
accessory common rooms and cooking and
eating facilities, for groups of unmarried
students in attendance at an educational
institution. Shall also include any building
or portion thereof in which individual
rooms or apartments are leased to individuals, but occupancy is limited to members
of a specific fraternity or sorority, regardless of the ownership of the building or the
means by which occupancy is so limited.
Applicant has a right to continue to operate in accordance
with the Code at the time they purchased the Subject
Property as a nonconforming use. Their use is grandfathered.
V.

Conclusion

Applicant U.J. Eighty Corp. respectfully request
that the Board dismiss the decision of the Zoning Compliance Planner to issue the Notices of Violation of noncompliance with UDO Section 20.02.500 [Institutional (IN)
Permitted Uses] at 1640 N. Jordan Avenue. UJ80

60a
reserves the right to submit additional documentation in
advance of its appeal hearing.
Sincerely,
Michael Shartiag
President, UJ 8o
Corporation
Timothy M. Burke
Sean P. Callan
Micah E. Kamrass
Manley Burke, LPA
Garry L. Founds
D. Michael Allen
Mallor Grodner LLP

61a
APPENDIX E

City of Bloomington
Planning and Transportation Department
February 22, 2018
U.J. Eighty Corp.
c/o Mr. Michael J. Shartiag
444 Lake Cook Road, Suite 11
Deerfield, Illinois 60015
Tenant
1640 N. Jordan Ave.
Bloomington, IN 47406
Re: Notice of Violation
Illegal Land Use at 1604 N. Jordan Ave
Dear Sir or Madam:
This Notice of Violation (NOV) serves as a formal warning
of non-compliance with the Unified Development Ordinance (UDO) Section 20.02.500 [Institutional (TN); Permitted Uses] at 1640 N. Jordan Ave. Records show that
you are the owner (or tenant) of this property.
This building is located in an Institutional (IN) zoning district which does not permit dwelling of any type, as per
the Bloomington Municipal Code’s Unified Development
Ordinance (UDO) Section 20.02.500 Institutional Permitted Uses. As of February 18, 2018, 1640 N. Jordan Ave
no longer meets the UDO definition of a ‘fraternity’, a permitted use in Institutional zoning districts. The Planning

62a
and Transportation Department was informed on
2/20/2018 that two individuals had not vacated the house
at 1640 N. Jordan Ave, thus an illegal land use.
In accordance with the UDO Section 20.10, a violation of
this nature may result in a two thousand five hundred dollar ($2,500) fine. Each day a violation is allowed to continue is considered a distinct and separate violation. Subsequent violations are twice the previous fine, up to a maximum daily fine of seven thousand five hundred dollars
($7,500).
No fines have been issued at this time. To avoid fines,
the use of the house as a dwelling must cease by March 1,
2018.
Please contact me at buddinc@bloomington.in.gov or 812349-3573 with any questions or concerns.
Sincerely,

Carl Buddin
Zoning Compliance Planner

63a

City of Bloomington
Planning and Transportation Department
February 28, 2018
U.J. Eighty Corp.
c/o Mr. Michael J. Shartiag
444 Lake Cook Road, Suite 11
Deerfield, Illinois 60015
Tenant
1640 N. Jordan Ave.
Bloomington, IN 47406
Re: Notice of Violation
Illegal Land Use at 1604 N. Jordan Ave
Dear Sir or Madam:
This Notice of Violation (NOV) serves as a formal warning
of non-compliance with the Unified Development Ordinance (UDO) Section 20.02.500 [Institutional (IN); Permitted Uses] at 1640 N. Jordan Ave. Records show that
you are the owner (or tenant) of this property.
This building is located in an Institutional (IN) zoning district which does not permit dwelling of any type other
than ‘Fraternity/Sorority House’, as per Bloomington
Municipal Code’s Unified Development Ordinance
(UDO) Section 20.02.500 Institutional Permitted Uses.
As of February 18, 2018, 1640 N. Jordan Ave. no longer
meets the UDO definition of a ‘Fraternity/Sorority
House’, a permitted use in Institutional zoning districts.
The definition is as follows:

64a
Fraternity/Sorority House: A building or portion thereof
used for sleeping accommodations, with or without accessory common rooms and cooking and eating facilities, for
groups of unmarried students who meet the following requirements: all students living in the building are enrolled
at the Indiana University Bloomington campus; and Indiana University has sanctioned or recognized the students
living in the building as being members of a fraternity or
sorority through whatever procedures Indiana University
uses to render such a sanction or recognition. Shall also
include a building or portion thereof in which individual
rooms or apartments are leased to individuals, but occupancy is limited to members of a specific fraternity or sorority, regardless of the ownership of the building or the
means by which occupancy is so limited, provided the two
requirements noted in the first sentence of this definition
are also met.
The Planning and Transportation Department was informed on 2/20/2018 that two individuals had not vacated
the house at 1640 N. Jordan Ave, thus an illegal land use.
In accordance with UDO Section 20.10, a violation of this
nature may result in a two thousand five hundred dollar
($2,500) fine. Each day a violation is allowed to continue is
considered a distinct and separate violation. Subsequent
violations are twice the previous fine, up to a maximum
daily fine of seven thousand five hundred dollars ($7,500).
No fines have been issued at this time. You have the
following options to remedy the situation and avoid
further enforcement.
1. Cease use of the house at 1640 N. Jordan Ave. as a
dwelling unit by March 7, 2018, OR;
2. A property owner or lessee of property within the City
or its zoning jurisdiction may file for a Use Variance
through the Board of Zoning Appeals in accordance
with the UDO Sections 20.09.030 [Applications;

65a
General] and Section 20.09.140 [Use Variance]. The
next available Board of Zoning Appeals hearing date
is 4/19/2018. The filing date for this meeting is 3/22/18.
In order for your case to be heard at this meeting, a
Pre-Application Meeting must be scheduled with a
planner by 3/15/2018.
If a fine is issued, the final fine amount shall be paid to the
City of Bloomington Planning and Transportation Department and directed to the following address: City of
Bloomington, Planning and Transportation Department,
401 North Morton Street, P.O. Box 100, Bloomington, Indiana 47402. All fines may be appealed to the Board of
Zoning Appeals or contested in the Monroe County Circuit Courts. Failure to resolve this violation or to pay the
final fine amount may result in further legal action.
Please contact me at buddinc@bloomington.in.gov or 812349-3573 with any questions or concerns.
Sincerely,

Carl Buddin
Zoning Compliance Planner

66a

City of Bloomington
Planning and Transportation Department
February 28, 2018
U.J. Eighty Corp.
c/o Mr. Michael J. Shartiag
444 Lake Cook Road, Suite 11
Deerfield, Illinois 60015
Re: Notice of Violation conversation: 1640 N. Jordan Avenue
Dear Mr. Shartiag,
Thank you for speaking with us yesterday. This letter is
being written to respond to a couple of the questions that
you posed.
1. Ordinance 15-26 was passed by City Council on December 16, 2015 and signed by the mayor on December
18, 2015. Several Unified Development Ordinance (UDO)
amendments were made with that Ordinance, including
replacing the definition of ‘Fraternity/Sorority House”
with the definition that is now in place.
2. The property located at 1640 N. Jordan Avenue was
zoned ‘Institutional’ in the 1996 Zoning Ordinance. The
designation did not change with the 2006 Unified Development Ordinance.

67a
For your information the City of Bloomington’s entire
Unified Development Ordinance is available online at
www.bloomington.in.gov/udo.
If you have any further questions please feel free to call
or e-mail me.
Sincerely,
Jackie Scanlan, AICP
Senior Zoning Planner
Interim Development Services Manager

68a
APPENDIX F

Fig. 1. Photo of the front of 1640 N. Jordan Ave.

69a

Fig. 2. Aerial photo of 1640 N. Jordan Ave.

70a

Fig. 3. Diagram showing 1640 N. Jordan Ave. The property on the lower left is Billy Hayes Track, a track and
field stadium located on the IU campus.

71a

Fig. 4. Bloomington’s Institutional Zoning District.

